No. 20-486

Iu rrrn
Supreme tourt of tbe @nfte[ $tuteg
NatuaNrpl, OcLE,
Petitioner,
V

OHro Crvrl Snnvrcp Eupr-oypps AssocrATroN, AFSCME

Local

11, AFL-CIO,

Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE
age, upon my oath state that I did, on the 14th day of
December, 2020, serve an electronic copy of the BRIEF IN OPPOSITION in the
above-entitled case to all parties required to be served, who consented to electronic
service only:

I, Lauren Noto, of lawful

William L. Messenger
(Counsel of Record)

National Right to Work Legal Defense
Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
wlm@nrtw.org
703.321.8510

I certify under penalty

of perjury that the foregoing is true and correct.

uren Noto
Executed on the 14th day of December,2020

